DOUGLAS N. LETTER

BROOKS M. HANNER

GENERAL COUNSEL

ASSOCIATE GENERAL COUNSEL

TODD B. TATELMAN
PRINCIPAL DEPUTY GENERAL COUNSEL

MEGAN BARBERO

U.S. HOUSE OF REPRESENTATIVES
OFFICE OF GENERAL COUNSEL
5140 O’NEILL HOUSE OFFICE BUILDING
WASHINGTON, DC 20515-6532
(202) 225-9700
FAX: (202) 226-1360

DEPUTY GENERAL COUNSEL

SARAH E. CLOUSE
ASSOCIATE GENERAL COUNSEL

WILLIAM E. HAVEMANN
ASSOCIATE GENERAL COUNSEL

ERIC R. COLUMBUS
SPECIAL LITIGATION COUNSEL

June 15, 2021

Mr. Scott Harris
Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Department of Justice. v. Committee on the Judiciary,
United States House of Representatives, No. 19-1328

Dear Mr. Harris:
Pursuant to Rule 21.4 of the Rules of this Court, Respondent House Committee
on the Judiciary (Committee) respectfully responds to petitioner’s motion for vacatur:
1.
This case arises from an application by the Committee filed on July 26,
2019, in the U.S. District Court for the District of Columbia, seeking grand jury
materials pursuant to Federal Rule of Criminal Procedure 6(e)(3)(E)(i) and that
court’s inherent authority to order disclosure. Rule 6(e)(3)(E)(i) authorizes the
disclosure of grand jury material “preliminarily to or in connection with a judicial
proceeding.” Here, the Committee sought the grand jury material associated with
Special Counsel Robert S. Mueller, III’s Report On The Investigation Into Russian
Interference In The 2016 Presidential Election preliminarily to a potential
impeachment trial of then-President Donald J. Trump. For almost 50 years—a period
that covered two Presidential and five Judicial impeachments—the Department of
Justice had supported such disclosures as authorized under Rule 6(e), before
reversing its position in this one case. Over the Justice Department’s opposition, on
October 25, 2019, the district court granted the Committee’s application in part, and
on March 10, 2020, the D.C. Circuit affirmed, holding that a Senate impeachment trial
is a “judicial proceeding” under Rule 6(e)(3)(E)(i).
2.
This Court granted certiorari on July 2, 2020, and this case was fully
briefed as of November 13, 2020. After President Joseph R. Biden, Jr. won the 2020
Presidential election, this Court granted the Committee’s motion to remove the case
from the December 2020 oral argument calendar. On June 14, 2021, the
Department of Justice filed a motion seeking vacatur of the D.C. Circuit’s opinion.

3.
The Committee acknowledges that this case is now moot because there
is no ongoing impeachment investigation of former President Trump. The
Committee thus does not oppose the Justice Department’s motion for vacatur.
4.
The Committee notes that the Trump Administration Justice
Department’s decision to reverse its longstanding position and oppose the
Committee’s application for relevant grand jury materials in this case prevented the
Committee from obtaining final judicial resolution before President Trump left office.
By choosing to reverse its longstanding position and appealing the district court and
D.C. Circuit decisions, the Trump Administration succeeded in running out the clock
and thereby undermined the ability of the House of Representatives to have access to
all of the relevant facts as it considered impeachment. This conduct has created a
dangerous new avenue to obstruct the ability of the House of Representatives to fulfill
its responsibility under Article I, Section 2 of the Constitution. As a result, the
Committee notes the importance of the Justice Department’s statement that the
parties may have a future occasion “to consider and articulate their positions on the
relevant issues” (Mot. 5), and the Committee fully trusts that the Justice Department
will return to its prior longstanding position and support disclosure at the
appropriate time. Any failure to do so would gravely unsettle the separation of
powers enshrined in the Constitution and undermine the public’s trust in our system
of government.
Respectfully submitted,

____________________________

Douglas N. Letter
General Counsel
Counsel of Record
OFFICE OF GENERAL COUNSEL
U.S. HOUSE OF REPRESENTATIVES
5140 O’Neill House Office Building
Washington, D.C. 20515
(202) 225-9700
douglas.letter@mail.house.gov

cc:

Edwin Smiley Kneedler
Deputy Solicitor General
United States Department of Justice

2

